                  CLOSE0 Url' MEMOIUNDUM FOR M-OIOl0003

 'I'hc c ~ r n ~ l a i n a ~ai t .l'ol-mcr
                                   '       graduate student (early 1980s) at a large univel.sity (the
 University), sent us a letter with multiple a ~ l e ~ a t i o n sllis
                                                                     . ~ two central allegations cited
 six fculty men~bers(subjects I through 613 at the University when he was a graduate
 student. The cornplainal~talleged that I ) the subjects misrepresented their graduale
 students' research as their own when they co-authored publications with these students
without actually doing any of the research work: when they listed these same
co-authored publications in their NSF proposals as work they had accomplished, and
when they published results from their graduate students' theses; and 2) the subjects
failed to share fairly research grant money they received from awards with the graduate
studentslresea'rch associates they worked with. In addition to these six subjects, the
complainant included hundreds of hculty members throughout the U.S. \vho he alleged
worked and co-authored papers with their graduate students in Ihe same manner. The
complainant specifically alleged that his former thesis advisor, subject 1, prevented him
from using research equipment purchased with grant money for graduate students' work.
The complainant included many other allegations that related to graduate students' theses
work, course work, graduate degrees, course grades, etc., that we determined were not
within our jurisdiction.

Our review determined that we lacked jurisdiction over three of the six subjects: subjects
3 and 4 never received NSF support, and subject 1, the complainant's former thesis
advisor, never received NSF support while he was at the university.

Subjects 2;5, and 6 received NSF support in the 1980s while the complainant was at the
University. The first set of allegations against these three subjects involved actions and
activities that were then, and remain today, commonly accepted practices in the scientific
and engineering ~ommunities.~With respect to the practice of co-authorship between
advisor and advisee, although the details of the practice vary from discipline to discipline,
from department to department, and, at times, from faculty member to faculty member

                                     raduate student in the-

                                   ;
                                   ; o f RICO, ofitate and labor laws, o f copyright
                                                                                 -   laws, and of The False
 Claims Act with some o f these allegations.




                                                               niversity when the complainant was a student.

 news to them." He goes on to say that he "realize[~]my complainant raises an issue that may be deemed
 as sticky to have to investigate a system of its heart. And since NSF is staffed by individuals serving as
 advisers themselves it generates a conflict; as to how forthcoming they would be in chasing their own
 colleagues. How can they.arrive at a conclusion for the rest o f the advisers as doing something wrong,
 since themselves engage in the same wrongful pradice?"


                                              Page 1 of 2                                         M 01-03
withi11 a department. fhc gcncral practice is commonly acceptcd, including publishing
p ; ~ - t s o ftlicsis matcrial priol- 10. and or after, the completion 01' tlic thesis Furtlicr, it is
commonly accepted practice t11at 1'1s list these same co-authored publications in NSF's
submitted proposals. 'There I S no evidence the subjects did anything wrong.

With respect to the second allegation, grants are to inslilutions, not individual
researchers, so the responsibility for the disposition of funds rests with each institution,
not the individual PI. Further, given that 15 years have elapsed sil.~cethe alleged unfair
distribution of funds occurred, there is no expectation that the University has any records
of these transactions because NSF's retention policy for grant-related materials is 3 years
following the closure of the award.

This inquiry is closed and no further action will be taken.

cc: Investigalions, IG




                                          Page 2 of 2
